Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




MARYLAND WITHDREW EXCESSIVE
 FEDERAL MEDICAID FUNDS FOR
        FISCAL YEARS
    2009 THROUGH 2011

  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                  Daniel R. Levinson
                                                   Inspector General

                                                     December 2013
                                                     A-06-12-00051
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                     EXECUTIVE SUMMARY

  For Federal fiscal years 2009 through 2011, Maryland obtained $115.3 million more in
  Federal funds than it expended.

WHY WE DID THIS REVIEW

To fund their Medicaid programs, States receive Federal grant awards that pay for the Federal
share of their Medicaid medical and administrative expenditures. An external audit of the
Federal fiscal year (FY) 2011 financial statements for the Centers for Medicare & Medicaid
Services (CMS) determined that State Medicaid programs owed $1.3 billion to the Federal
Government. We conducted an audit of Maryland because it had one of the highest amounts
owed to the Federal Government. This is part of a series of reviews related to States’ Federal
Medicaid withdrawals.

The objective of this review was to determine whether Federal Medicaid funds that the Maryland
Department of Health and Mental Hygiene (State agency) obtained for FYs 2009 through 2011
were supported by net expenditures.

BACKGROUND

Before the beginning of each quarter, States estimate their medical and administrative
expenditures. CMS uses the estimates to determine the initial grant awards, which are the
Federal fund amounts that will be available to States during the quarter. If a State
underestimates the amount of funds it will need during a quarter, it may request additional funds
through a supplemental grant award.

The Payment Management System (PMS) is used to account for Medicaid financial activity.
Throughout a quarter, States withdraw Federal funds from the PMS accounts to pay the Federal
share of medical and administrative expenditures. After the end of each quarter, States report
expenditures and the associated Federal share on the Quarterly Medicaid Statement of
Expenditures for the Medical Assistance Program (CMS-64 report). CMS calculates a finalized
grant award amount for each State by comparing the initial and supplemental grant awards for
the quarter to both the expenditures reported on the CMS-64 report and adjustments to those
expenditures that were not included on the CMS-64 report.

After each quarter, the State agency performs a reconciliation to compare the total Federal funds
withdrawn according to its internal records with the Federal share of expenditures reported on
the CMS-64 report and identifies any differences. If total Federal funds withdrawn are less than
expenditures, the State agency increases a future withdrawal. Conversely, if total Federal funds
withdrawn exceed expenditures, the State agency reduces a future withdrawal by the difference.

WHAT WE FOUND

The State agency obtained Federal Medicaid funds for FYs 2009 through 2011 that were not
supported by net expenditures. The State agency obtained $12,882,585,330 in Federal Medicaid


Maryland’s Federal Medicaid Withdrawals (A-06-12-00051)                                             i
funds, but CMS awarded the State agency only $12,767,253,668 for Medicaid expenditures. The
State agency inappropriately withdrew the difference of $115,331,662, consisting of:

    •   $116,726,613 that the State agency inappropriately withdrew from FY 2012 grant award
        funds because of errors that occurred during its quarterly reconciliations for FYs 2009
        through 2011 and

    •   $1,394,951 owed to the State agency because it mistakenly returned more funds than
        necessary in an FY 2011 account that was originally overdrawn.

Additionally, the State agency did not always withdraw Federal funds from the appropriate PMS
accounts because of fund deficiencies, a faulty procedure, and other errors. The withdrawals
caused the balances in the accounts to be wrong.

WHAT WE RECOMMEND

We recommend that the State agency:

    •   refund $115,331,662 to the Federal Government,

    •   ensure that the amounts used in its quarterly reconciliations are accurate and that it makes
        reconciliation adjustments to return or obtain Federal funds,

    •   establish procedures in its quarterly reconciliations to account for adjustments to
        expenditures not included on the CMS-64 report but that affect the State agency’s grant
        award amounts,

    •   monitor PMS accounts to anticipate fund deficiencies and determine whether to refund
        overdrawn amounts or to request a supplemental grant award, and

    •   ensure that it withdraws funds from the appropriate PMS account.

STATE AGENCY COMMENTS

The State agency concurred with all of our recommendations.




Maryland’s Federal Medicaid Withdrawals (A-06-12-00051)                                            ii
                                                     TABLE OF CONTENTS

INTRODUCTION ........................................................................................................................1

           Why We Did This Review ................................................................................................1

           Objective ...........................................................................................................................1

           Background .......................................................................................................................1
                 Medicaid Program .................................................................................................1
                 Medicaid Funding Process ....................................................................................1
                 The State Agency’s Quarterly Reconciliations .....................................................2

           How We Conducted This Review.....................................................................................2

FINDINGS ....................................................................................................................................3

           The State Agency Made Errors During Its Quarterly Reconciliations .............................3
                  The State Agency Did Not Accurately Adjust Future Withdrawals Based on Its
                    Reconciliation Differences.................................................................................3
                  The State Agency Made Miscellaneous Errors .....................................................4
                  The State Agency Did Not Account for Adjustments to Expenditures. ...............4

          The State Agency Returned More Federal Funds Than Necessary to an Account. ..........5

          The State Agency Did Not Withdraw Federal Funds From the Appropriate Accounts ....5

RECOMMENDATIONS ..............................................................................................................5

STATE AGENCY COMMENTS AND OUR RESPONSE.........................................................6

APPENDIXES

           A: AUDIT SCOPE AND METHODOLOGY .................................................................7

           B: MISCELLANEOUS ERRORS ON THE STATE AGENCY’S
                 QUARTERLY RECONCILIATIONS .................................................................9

           C: STATE AGENCY COMMENTS .............................................................................11




Maryland’s Federal Medicaid Withdrawals (A-06-12-00051)                                                                                             iii
                                              INTRODUCTION

WHY WE DID THIS REVIEW

To fund their Medicaid programs, States receive Federal grant awards that pay for the Federal
share of their Medicaid medical and administrative expenditures. Before Federal fiscal year
(FY) 2010, States had grant award accounts that combined the Medicaid funds from every year.
Consequently, yearly balances were not distinguished. Beginning in FY 2010, the Centers for
Medicare & Medicaid Services (CMS) implemented annualized accounts for grant awards that
had beginning and ending balances to improve the transparency of Medicaid funding. As a part
of the CMS Financial Report FY 2011, an external audit of CMS’s financial statements
determined that State Medicaid programs owed $1.3 billion to the Federal Government. 1 We
conducted an audit of Maryland because it had one of the highest balances owed to the Federal
Government. This is part of a series of reviews related to States’ Federal Medicaid withdrawals.

OBJECTIVE

Our objective was to determine whether Federal Medicaid funds that the Maryland Department
of Health and Mental Hygiene (State agency) obtained for FYs 2009 through 2011 were
supported by net expenditures.

BACKGROUND

Medicaid Program

The Medicaid program provides medical assistance to low-income individuals and individuals
with disabilities. The Federal and State Governments jointly fund and administer the Medicaid
program. At the Federal level, CMS administers the program. Each State administers its
Medicaid program in accordance with a CMS-approved State plan. In Maryland, the State
agency administers the Medicaid program. Although the State agency has considerable
flexibility in designing and operating its Medicaid program, it must comply with applicable
Federal requirements.

Medicaid Funding Process

Before the beginning of each quarter, States estimate their medical and administrative
expenditures and report the estimates to CMS on the quarterly Medicaid Program Budget Report
(CMS-37 report). CMS uses the estimates in that report to determine the initial grant awards,
which are the Federal fund amounts that will be available to States during the quarter. If a State
underestimates the amount of funds it will need during a quarter, it may request additional funds
by submitting a revised CMS-37 report. The resulting increase in Federal funds is known as a
supplemental grant award.

CMS provides the grant award amounts to the Division of Payment Management (DPM), a
division within the Department of Health and Human Services, which operates as CMS’s fiscal
1
    CMS, CMS Financial Report Fiscal Year 2011, Financial Section, Audit Reports, page 121.


Maryland’s Federal Medicaid Withdrawals (A-06-12-00051)                                          1
intermediary. DPM uses the Payment Management System (PMS) to account for Medicaid
financial activity, such as recording grant award amounts and processing the States’ withdrawals.
Beginning in FY 2010, CMS implemented annualized PMS accounts for the grant awards. As a
result, each State has PMS accounts for each FY rather than combining the funds for multiple
FYs.

Throughout a quarter, States withdraw Federal funds from the PMS accounts to pay the Federal
share of medical and administrative expenditures. Within 30 days after the end of each quarter,
States report to CMS expenditures and the associated Federal share on the Quarterly Medicaid
Statement of Expenditures for the Medical Assistance Program (CMS-64 report). The amounts
that States report must represent actual expenditures.

CMS calculates a finalized grant award amount for each State by comparing the initial and
supplemental grant awards for the quarter with expenditures reported on the CMS-64 report.
CMS also includes in its calculation adjustments to expenditures that were not included on the
CMS-64 report, such as interest due to CMS and expenditures that CMS disallowed. If a State’s
initial and supplemental grant awards are less than its expenditures, CMS increases the State’s
grant award. Conversely, if a State’s initial and supplemental grant awards exceed its
expenditures, CMS decreases the State’s grant award by the difference.

The State Agency’s Quarterly Reconciliations

After each quarter, the State agency’s finance department compares the total Federal funds
withdrawn according to its internal records with the Federal share of expenditures reported on
the CMS-64 report and identifies any differences. The finance department provides the results of
this reconciliation to the State agency’s accounting department. If total Federal funds withdrawn
are less than expenditures, the accounting department increases a future withdrawal to obtain the
difference. Conversely, if total Federal funds withdrawn exceed expenditures, the accounting
department reduces a future withdrawal to return the difference.

HOW WE CONDUCTED THIS REVIEW

The State agency obtained $12,882,585,330 in Federal Medicaid funds for FYs 2009 through
2011 (i.e., October 1, 2008, through September 30, 2011). We compared the amounts that the
State agency withdrew with the final amounts that CMS awarded for expenditures and reviewed
the State agency’s quarterly reconciliations.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix A contains the details of our audit scope and methodology.




Maryland’s Federal Medicaid Withdrawals (A-06-12-00051)                                           2
                                             FINDINGS

The State agency obtained Federal Medicaid funds for FYs 2009 through 2011 that were not
supported by net expenditures. The State agency obtained $12,882,585,330 in Federal Medicaid
funds, but CMS awarded the State agency only $12,767,253,668 for Medicaid expenditures. The
State agency inappropriately withdrew the difference of $115,331,662, consisting of:

    •   $116,726,613 that the State agency inappropriately withdrew from FY 2012 grant award
        funds because of errors that occurred during its quarterly reconciliations for FYs 2009
        through 2011 and

    •   $1,394,951 owed to the State agency because it mistakenly returned more funds than
        necessary in an FY 2011 account that was originally overdrawn.

Additionally, the State agency did not withdraw Federal funds from the appropriate PMS
accounts because of fund deficiencies, a faulty procedure, and other errors. The withdrawals
caused the balances in the accounts to be wrong.

THE STATE AGENCY MADE ERRORS DURING ITS
QUARTERLY RECONCILIATIONS

Sections 1903(a)(1) and (a)(7) of the Social Security Act make Federal financial participation
available only for the total amount expended as medical assistance and for the proper and
efficient administration of a CMS-approved State plan. Additionally, 42 CFR § 430.30(d)(3)
authorizes the State to withdraw Federal funds as needed to pay the Federal share of Medicaid
disbursements.

The State agency withdrew $116,726,613 from FY 2012 grant award funds that were not needed
to pay the Federal share of Medicaid disbursements. These inappropriate withdrawals occurred
because of errors that the State agency made during its quarterly reconciliations for FYs 2009
through 2011, consisting of:

    •   $72,860,327 because the State agency did not accurately adjust future withdrawals based
        on its reconciliation differences,

    •   $29,303,063 because the State agency made miscellaneous errors when compiling the
        amounts used in its reconciliations, and

    •   $14,563,223 because the State agency did not account for adjustments to expenditures
        that were not included on the CMS-64 report.

The State Agency Did Not Accurately Adjust Future Withdrawals Based on Its
Reconciliation Differences

In 8 of the 12 quarters, the State agency did not accurately adjust future withdrawals based on
quarterly reconciliation differences between what it withdrew and what it reported in


Maryland’s Federal Medicaid Withdrawals (A-06-12-00051)                                           3
expenditures. As a result, it withdrew a total of $72,860,327 more in Federal funding than was
needed to pay the Federal share of Medicaid disbursements. The following graph shows, by
year, the Federal funding the State agency did not return.


                                        Overdrawn Amounts
                                           (in Millions)
                                                            $46.7
                                $50
                                $40
                                $30
                                $20      $14.0      $12.2
                                $10
                                 $0
                                         2009       2010    2011


A State agency official explained that State agency staff did not accurately adjust future
withdrawals because of human errors, such as increasing rather than decreasing Federal funds by
the adjustment amount, incorrectly combining amounts, and accidentally omitting adjustments.
Although the State agency’s procedures called for review of the reconciliations and adjustments,
the errors went undetected.

The State Agency Made Miscellaneous Errors

In various quarters, the State agency made miscellaneous errors when compiling the amounts
used in its reconciliations, which resulted in a total overdrawn amount of $29,303,063 that was
not needed to pay the Federal share of Medicaid disbursements. A State agency official
explained that these miscellaneous errors resulted from miscalculations, formula errors, and
reliance on amounts from the State agency’s internal reports of Federal funds withdrawn rather
than the actual amounts from the PMS. Although the State agency’s procedures called for
review of the reconciliations and adjustments, the errors went undetected.

See Appendix B for detailed information about each miscellaneous error.

The State Agency Did Not Account for Adjustments to Expenditures

The State agency’s reconciliation process did not account for adjustments that CMS made to the
State agency’s expenditures (e.g., interest due to CMS and expenditures that CMS disallowed),
which reduced the State agency’s finalized grant awards by $14,563,223. These adjustments
were not captured on the CMS-64 reports. Thus, the $14,563,223 in Federal funds was not
needed to pay the Federal share of Medicaid disbursements. Because the State agency’s
reconciliation procedure only involved comparing the amount of Federal funds withdrawn with
the Federal share of expenditures reported on the CMS-64 report, the State agency did not
include CMS’s adjustments in its quarterly reconciliations.




Maryland’s Federal Medicaid Withdrawals (A-06-12-00051)                                           4
THE STATE AGENCY RETURNED MORE FEDERAL FUNDS THAN NECESSARY
TO AN ACCOUNT

Sections 1903(a)(1) and (a)(7) of the Social Security Act make Federal financial participation
available only for the total amount expended as medical assistance and for the proper and
efficient administration of a CMS-approved State plan. Additionally, 42 CFR § 430.30(d)(3)
authorizes the State to withdraw Federal funds as needed to pay the Federal share of Medicaid
disbursements.

The State agency returned $1,394,951 more than necessary to an account that was originally
overdrawn. An FY 2011 account for funding under the American Recovery and Reinvestment
Act of 2009 had an ending balance of $3,490,500 owed to the Federal Government. 2 However,
the State agency paid back $4,885,451. State agency officials could not explain why more funds
were paid back than owed.

THE STATE AGENCY DID NOT WITHDRAW FEDERAL FUNDS
FROM THE APPROPRIATE ACCOUNTS

Section 2600.E of the CMS State Medicaid Manual states that, if the estimates originally
submitted for the current quarter are lower than the amount required as the quarter progresses,
the State agency should notify CMS and prepare a request for a supplemental grant award no
later than 10 calendar days before the end of the quarter.

The State agency did not always withdraw funds from the appropriate PMS accounts because of
fund deficiencies, a faulty procedure, and other errors. On multiple occasions, the State agency
withdrew Federal funds from one year’s account to pay for a different year’s expenditures. For
example, the State agency withdrew $152,205,904 from a 2011 account to overcome a 2010 fund
deficiency. The State agency did not have procedures for monitoring its PMS accounts to
anticipate fund deficiencies or for requesting supplemental grant awards. If the State agency
underestimates the amount required for a quarter’s expenditures, the State should notify CMS
and prepare a request for a supplemental grant award. Although the withdrawals caused the
account balances to be wrong, they did not result in monetary effects because the expenditures
were simply misclassified.

                                          RECOMMENDATIONS

We recommend that the State agency:

    •    refund $115,331,662 to the Federal Government,



2
  The American Recovery and Reinvestment Act of 2009 (P.L. No. 111-5), enacted February 17, 2009, provided
fiscal relief to States to protect and maintain State Medicaid programs in the recession adjustment period (October 1,
2008, through December 31, 2010). The Education, Jobs, and Medicaid Assistance Act (P.L. No. 111-226,
§ 201) extended the recession adjustment period through June 30, 2011.



Maryland’s Federal Medicaid Withdrawals (A-06-12-00051)                                                             5
    •   ensure that the amounts used in its quarterly reconciliations are accurate and that it makes
        reconciliation adjustments to return or obtain Federal funds,

    •   establish procedures in its quarterly reconciliations to account for adjustments to
        expenditures not included on the CMS-64 report but that affect the State agency’s grant
        award amounts,

    •   monitor PMS accounts to anticipate fund deficiencies and determine whether to refund
        overdrawn amounts or to request a supplemental grant award, and

    •   ensure that it withdraws funds from the appropriate PMS account.

                   STATE AGENCY COMMENTS AND OUR RESPONSE

The State agency concurred with all of our recommendations and described corrective actions
that it had taken or planned to take.

Although the State agency concurred with our recommendations, it requested that we change the
title of our report. The State agency is concerned that our title implies that Maryland acted in
pursuit of excessive Federal funds. We do not believe our title suggests, nor did we find, that
Maryland intended to withdraw excessive funds. Therefore, we have decided not to change the
title.

The State agency’s comments appear in their entirety as Appendix C.




Maryland’s Federal Medicaid Withdrawals (A-06-12-00051)                                            6
                   APPENDIX A: AUDIT SCOPE AND METHODOLOGY
SCOPE
The State agency obtained $12,882,585,330 in Federal Medicaid funds for FYs 2009 through
2011 (i.e., October 1, 2008, through September 30, 2011).
We limited our review of supporting documentation to records supporting the State agency’s
withdrawing of Federal funds; we did not evaluate the accuracy of the expenditures that the State
agency reported on its CMS-64 report. Our objective did not require a review of the overall
internal control structure of the State agency. Therefore, we limited our internal control review
to the State agency’s procedures for withdrawing Federal Medicaid funds.
We conducted fieldwork at the State agency’s offices in Baltimore, Maryland, from August 2012
to February 2013.

METHODOLOGY
To accomplish our objective, we:

    •   reviewed applicable Federal laws and regulations;

    •   held discussions with CMS officials to gain an understanding of CMS guidance furnished
        to the State agency concerning the withdrawing of Federal funds;

    •   interviewed State agency officials to obtain an understanding of the State agency’s
        policies and procedures for withdrawing Federal funds;

    •   analyzed the State agency’s procedures for conducting quarterly reconciliations and
        reviewed those reconciliations;

    •   obtained and analyzed the PMS account detail, including grant award amounts and actual
        withdrawals that the State agency made;

    •   compared the grant award amounts in the PMS for each quarter with Medicaid grant
        award documents to ensure the accuracy of the PMS data;

    •   traced the amounts that CMS used to calculate the final grant award amounts for each
        quarter to the CMS-64 report;

    •   compared the State agency’s documentation supporting its Federal Medicaid fund
        withdrawals to the withdrawals in the PMS; and

    •   discussed our results with the State agency.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions


Maryland’s Federal Medicaid Withdrawals (A-06-12-00051)                                           7
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Maryland’s Federal Medicaid Withdrawals (A-06-12-00051)                                        8
          APPENDIX B: MISCELLANEOUS ERRORS ON THE STATE AGENCY’S
                        QUARTERLY RECONCILIATIONS

In various quarters, the State agency made miscellaneous errors when compiling the amounts
used in its reconciliations. Those errors resulted in a total overdrawn amount of $29,303,063 that
was not needed to pay the Federal share of Medicaid disbursements. The table below lists the
types of miscellaneous errors and their effects, and more detailed explanations follow the table.

               Miscellaneous Errors on the State Agency’s Quarterly Reconciliations


                                   Error                                     Amount 3
                  Incorrectly included expenditures
                  from another federally funded
                  program                                                $36,250,169
                  Amount withdrawn and returned twice                     (7,605,738)
                  Omitted amount from Federal funds
                  withdrawn                                                  3,014,904
                  Excluded Medicaid expenditures                             (2,571,213)
                  Used amounts on internal reports
                  instead of actual amounts for Federal
                  funds withdrawn                                           214,941
                    Total                                                $29,303,063

Incorrectly Included Expenditures From Another Federally Funded Program

In its reconciliation for the quarter ended December 31, 2009, the State agency incorrectly
included with its Medicaid expenditures $36,250,169 of expenditures from another federally
funded program. This caused the State agency to understate the amount of funds that it owed. A
State agency official explained that the State agency included non-Medicaid expenditures
because of human error.

Amount Withdrawn and Returned Twice

For the quarter ended September 30, 2010, the State agency withdrew $7,605,738 twice. The
State agency identified the error but returned the money twice. As a result, the State agency did
not obtain the funding that it was owed. A State agency official explained that the duplicated
return occurred because of human error.

Omitted Amount From Federal Funds Withdrawn

In its reconciliation for the quarter ended March 31, 2010, the State agency omitted $3,014,904
when it calculated the total amount of Federal funds withdrawn. As a result, the State agency

3
    Amounts shown in parentheses represent money owed to the State agency.


Maryland’s Federal Medicaid Withdrawals (A-06-12-00051)                                             9
returned less money than it owed for the quarter. The State agency official explained that this
omission occurred because of human error.

Excluded Medicaid Expenditures

In its reconciliation for the quarter ended December 31, 2008, the State agency excluded
$2,571,213 in Medicaid expenditures because a formula was deleted from the spreadsheet used
to perform the reconciliation. Consequently, the State agency did not obtain the funding that it
was owed.

Used Amounts on Internal Reports Instead of Actual Amounts for
Federal Funds Withdrawn

In various quarterly reconciliations, the State agency used its internal records to determine the
amount of Federal funds withdrawn instead of using the actual amounts from the PMS. Because
differences occurred between the two sources, the State agency ultimately returned $214,941 less
than it owed.




Maryland’s Federal Medicaid Withdrawals (A-06-12-00051)                                            10
                           APPENDIX C: STATE AGENCY COMMENTS 


                           ST \ TL 0 1·        ~I A R Y L AN D


                                                    I

                            Mary la nd D e partm e nt o f Health and Menta l H ygie ne
                            20 I W. Pres ton St ree t • Ba lt imore, Maryl and 2 120 I
                            ~ 1;\nm   O'l\ l:alky. Go\·Crn o r - Anthony G. 13mwn. Lt. Govcmor- Jo~hua i\1   Sh~trfM~tn. ~1. D ..   Sccrt:tary




                                                                 October 4 , 2013

             Ms. Patricia Whee ler
             Regional Inspector General for Audit Services
             Department o f Heal th and !I uman Services
             Oriiee of Inspec tor General
             Ortice of Audit Services. Regio n VI
             I I 00 Commerce Street. Room 632
             Dallas. TX 75242

                                                                                      Report Number: A-06-1 2-0005 I


             Dear Ms. Wheeler:

             Thank you for the opportu nity to rev iew and comment on the draft audit report entitl ed Maryland
             Withdrew Excessive Federal Medicaid Fundsfor Fiscal Years 2009 Through 2011. The
             Department o f Hea lth and 1\llental Hyg iene (the Depart ment) concurs with the audit findings and
             reco mmendations. and has already taken steps to resolve the issues.

             J'.illll:rland requests that the title ofthe final aut/it report be changed to tlte following:
             "MriiJ' Iaml Failed to A deq uately Reconcile Fetlem l Draw Downs witlt Actual Expendituresfor
             Fiscal Yettrs 2009 Through 201/." T he title in the draft aud it repo rt implies. incorrect ly, that
             Maryland's act ions were do ne in pursuit o f excess ive federa l funds. whe n in fact the underlying
             issue involved reconcilia ti on proced ures. Given the lnrgc do llar amou nt ment ioned in the report.
             and the absence of an y findi ng that Maryland sought or received excess ive federal funds to
             dis place state dollars. we urge the Office of the Ins pector General (O lG) to use the most
             con servative language possible in the tit le and narrati ve o f the fina l repo rt. This was not the case
             o f a s tate seeking too much money from the federal government. It was a case involving the
             timi ng and hand ling o f reconc iling legitimate expend itures against federal draw downs. In the
             strongest possibl e way. we urge 0 10 to avo id the usc o f sensational language .
              Audit Recommendation: Refund $ 11 5,33 1.662 to the fede ral governmen t.

              Department's Res pons e:
             T he State concurs that $ 115.33 1.662 should be refunded. During the period of time re fl ected in
             the audit. several reconciliation errors caused federal funds to be drawn in excess o f the federal
             match supported by the CMS-64 reports. ll owcver. these en·ors did not alter the underl yin g
             integri ty of the s tate contribution. nor did they s ubstitute for state fund s. All o f the excess draws

                                Toll Free 1-S77-4 MD-DHMII - n ·Y/ M nry la nd Relay Service 1-X00-735-2258 

                                                     Weh Site: W\\ w. dhmh.statc.md. us 





Maryland's F ederal M edicaid Withdrawals (A -06-12-00051)                                                                                       11
              Ms.Patricia Wheele r
              Page 2

             were ava ilab le for return , because in state fi sca l year closings the Depa rtment reconciles to
             federal funds supported by the quarterly CMS-64 reports, adjusted for any amou nts disallowed.
             and does not simply apply gross draws.
              As indicated in the report. the State was entitled to $ 12.767 bill ion in draws over the three year
              period rather than $1 2.883 billion. The over draw is s lightly less than a I% error on this amount.
              However. the amount of the excess draw should have been detected in our reconciliations. Steps
              have been taken. as described below. to correct and tighten our internal procedures.
              As detailed in the aud it report. the $ 115,331.662 is net ofan $ 11 6.726.61 3 overdraw of regular
              Medicaid fu nds. less an ava ilable balance o f $ 1.394,95 1 ARRA funding. not yet d rawn.
              On the Med icaid side. $ 116.377.1 86 was returned on Marc h 26. 20 13 as a (decreasing) offset to
              our weekly draw. The remaining $349,427 is an administrative component of the over draw
              which we have yet to return. and will do so as an offset to the fi rst week ly draw in October.
              20 13.

              T he $1.394,951 ARRA amount due to the State has not yet been drawn. but we will do so in the
               first draw in Octobe r. 20 13. Enhanced AR.RA FMAP ceased to be availab le for c laims filed after
              .J une 30, 2011 , but as req ui red by CMS, the State has continued to track and return the ARRA
              component of recoveries that were assoc iated w ith original ARRA claims. That " run out"
              process appears to be substant ially complete and we will draw down the remai ning funds.
              Audit Recomm endation: Ensure that the amounts used in its quarterly reco nciliations are
              accurate and that it (the State) makes reconcilia tion adjustments to return or obtain federal funds.

              Department's Res ponse:

              The State concurs. We have reviewed the documents and processes bei ng used for quarterly
              reconc iliations to ensure use ofaccurate data and separatio n of major fundi ng streams.
              particularly Medicaid vs. CHIP. In addition. qua rterly reconci ling adju stments will be made as
              ap propriate.

              The last three recommendations are related and will be addressed co llectively:
              Audi t Recommen d ation: Establish procedures in quanerl y reconciliations to account for
              adjustments to ex penditures not included on the CMS-64 report but that affect the State agency's
              gran t award amounts.
              Audi t .Recomm endation: Monitor PMS (Payment Management System) accounts to antic ipate
              fund de ti cicncies and determine whether to refund overdrawn amounts or to request a
              supplemental grant award. and
              Audi t Reco mm endation : Ensure that funds are withdra,, n ITom the appropriate PMS account.




Maryla nd 's Federal M edicaid Withdrawals (A-06-12-00051)                                                            12
              Ms Patricia Wheeler
              Page 3


              Department's Res ponse:
             The State concurs with all of the above. As a co rrective act ion that add resses each of these
             concerns, the S tate is close ly monitoring weekly balances in each PMS fu nd accou nt. to verify
             that weekly activity only includes appropriate weekly draws from appropriate accounts. If other
             acti vity in the account(s} is d iscovered. such as CMS adjustments to expenditures not considered
             on the CMS-64. it will be immediately investigated and noted for proper cons ideration in the
             quarterly reconciliati ons. In add ition, the Department is c losely mon itoring grant balances duri ng
             the quarter vs. expenditure trends, to enable timely requests for supplemen tal awa rds.
              Thank you , again, for the opportun ity to respond. If you have any questions. please contact
              Thomas Russell , Inspector Genera l at 410-767-5784 or Hank Fitzer. Deputy Director, Office of
              Finance at 4 10-767-5 189.


                                                            Sincerely,




                                                            Joshua M. Sharfste in, M.D
                                                            Secretary




              cc: 	   C harles Milligan. DHMH, Dep uty Secretary, Hea lth Care Financing
                      TI1omas V. Russell. DI-I Mf-1. Inspector General
                      Ellwood Hall. DII MH. Assistant Inspector General
                      Audrey Parham-S tewart. DHM H. Director. Office of Finance
                      Elizabeth Morgan. DHMH. Office of the Inspector General
                      Warren Lundy. Aud it Manager, HI-IS O IG




Maryland 's Federal M edicaid Withdrawals (A -06-12-00051)                                                             13
